0

I DoNNA J. WOLF, J.D.

BECKER GALLAGHER
Briefs

and

JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I , Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Larry Benzon, Warden, Utah State Prison
u. Troy Michael Kell, were sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 21st day of August, 2019:
Dale A. Baich
Alexandra H. LeClair
JonM. Sands
Office of the Federal Public Defender
for the District of Arizona
850 West Adams Street, Suite 201
Phoenix, AZ 85007
(602) 382-2816
Dale_Baich@fd.org
alexandra_leclair@fd.org
Lindsey Ann Layer
Assistant Federal Public Defender
Office of the Federal Public Defender
District of Utah
46 West Broadway, Suite 110
Salt Lake City, UT 84101
(801) 524-4010
lindsey_layer@fd.org

Counsel for Respondent

I (800) 890.5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I www.beckergallagher.com

[ 8790 Governor' s Hill Drive
Suite 102

i Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

SEAN D. REYES

Utah Attorney General

TYLER R. GREEN

Utah Solicitor General
Counsel of Record

THOMAS B. BRUNKER

Deputy Solicitor General

ANDREW F. PETERSON
ERIN RILEY
SHANE D. SMITH

Assistant Solicitors General
350 N. State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
tylergreen@agutah.gov

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 21, 2019.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary
[seal]

JULIE ANNE l<ERSHNER
Notary Public, State of Ohio
My Cornmission Expires
February 21, 2023

